                    U.S. Department of Energy
                    Office of Inspector General
                    Office of Audits and Inspections




AUDIT REPORT
Cost and Schedule of the Mixed Oxide Fuel
Fabrication Facility at the Savannah River Site




  DOE/IG-0911                          May 2014
                                        Department of Energy
                                           Washington, DC 20585

                                                  May 22, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                          Gregory H. Friedman
                               Inspector General

SUBJECT:                       INFORMATION: Audit Report on "Cost and Schedule of the Mixed
                               Oxide Fuel Fabrication Facility at the Savannah River Site"

BACKGROUND

In September 2000, the United States and Russia signed a Plutonium Management and
Disposition Agreement for the disposal of surplus weapon-grade plutonium. This agreement
called for each country to dispose of at least 34 metric tons of plutonium by converting it into
mixed oxide (MOX) fuel 1 that can be used in commercial nuclear power reactors. Once
irradiated, the plutonium in MOX fuel is no longer readily usable in nuclear weapons. To carry
out this program, the Department of Energy decided to construct the Mixed Oxide Fuel
Fabrication Facility (MOX Facility) at the Savannah River Site near Aiken, South Carolina. The
Department based its MOX Facility design on processes and facilities already operating in
France, but modified the designs to meet U.S. requirements and regulations.

Shaw AREVA MOX Services, LLC (MOX Services), the current MOX Facility contractor, has
been working on the design of the facility since 1999. The Department formally approved a
project baseline in April 2007, and started construction on the MOX Facility in August 2007. At
that time, the MOX Facility project had an estimated total project cost of $4.8 billion and a
scheduled completion date of September 2016. Through October 2013, about $4 billion had
been spent on the MOX Facility project and latest available project estimates show that the
project was about 60 percent complete. However, design work is still underway in a number of
areas including software, instrumentation and control systems, as well as fire suppression and
various mechanical systems.

The objective of this audit was to determine if the Department's National Nuclear Security
Administration (NNSA) had managed the design and construction of the MOX Facility in an
efficient and effective manner. Since initiation of the audit, concerns with MOX Facility
progress have received wide-spread public attention and the Department has announced plans to
reassess project alternatives.

RESULTS OF AUDIT

NNSA and MOX Services have been largely unsuccessful in controlling the cost and schedule
for the MOX Facility. A March 2012 construction project review conducted by NNSA
1
    Mixed oxide fuel is produced by mixing plutonium with depleted uranium.
concluded that the MOX Facility had a very low probability of being completed according to the
approved baseline. NNSA directed MOX Services to develop a baseline change proposal with
updated project completion, cost and schedule projections. Under the revised baseline, it was
estimated that total project costs would grow to about $7.7 billion and that completion would slip
to November 2019. 2 This represents cost growth of about $2.9 billion and project schedule
slippage of over 3 years.

The anticipated cost and time required to complete the MOX Facility were significantly
underestimated due to a number of factors. This included, most prominently, the Department's
2007 approval of a project baseline that was developed from an immature design, understating
the level of effort to install various construction commodity items, and high personnel turnover
rates. Prior to approval, the Department's own independent review of the project baseline found
that the design review of the MOX Facility was incomplete. In fact, the review was performed
on only the construction package for the MOX Facility structure and did not include all the
integral systems, structures and components. Furthermore, the independent review found that
the design reviews conducted by NNSA and MOX Services did not meet the intent of
Department Manual 413.3-1, Project Management for the Acquisition of Capital Assets, for the
approval to start construction. Specifically, project construction is to begin when design and
engineering activities are essentially complete and final design review and environmental and
safety criteria are met. The timing of initiating construction of the MOX Facility violated this
basic principle.

We noted that additional work scope added at NNSA's direction caused some of the cost growth
in the baseline change proposal developed by MOX Services. Specifically, NNSA is considering
adding a plutonium oxidation capability for providing feed material to the MOX Facility,
because it cancelled the construction of a $4 billion standalone facility. MOX Services estimated
that adding a 1.5 metric ton-per-year plutonium metal oxidation capability to the MOX Facility
would increase the total project cost by about $262 million, bringing total project cost to about
$7.7 billion. That addition is not expected to be completed until June 2023. However, MOX
Services expressed its belief that adding a plutonium metal oxidation capability would have no
adverse impact on the construction schedule.

Given the combination of project cost increases, schedule delays and concerns regarding the
current budget environment, the Department initiated an assessment of alternative plutonium
disposition strategies, while at the same time it requested reduced funding for the project. The
Department's Fiscal Year (FY) 2014 budget request reduced funding for the MOX Facility
construction project from $478 million to $360 million. The FY 2015 budget request proposes
placing the project into cold standby status. During recent updates on the project, NNSA
informed us that efforts to validate the most recent baseline change proposal have been placed on
hold pending the outcome of the disposition alternatives assessment. This assessment and the
associated independent review are expected to be completed in the next 12 to 18 months. Also,
NNSA plans to develop another baseline change proposal based on the results of the assessment.
In the interim, MOX Services developed a project execution plan for focusing on critical path
activities, reducing procurement expenditures, and retaining key personnel pending the outcome
of the Department's assessment and a decision on how to proceed with the plutonium disposition
program.

2
 According to NNSA, the revised baseline is no longer valid because it assumed more than $600 million per year in
funding, which is no longer supported by the Department's budget for this project.


                                                        2
According to NNSA management, they have taken a series of steps to improve project
management performance as a whole. For example, NNSA established a new acquisition and
project management organization to oversee projects. Also, NNSA told us that it had
strengthened change control procedures to prevent scope creep on projects and adopted a peer
review process to provide critical independent assessments. Finally, NNSA stated that senior
management is now engaged early when project performance issues are identified and is holding
contractors accountable by reducing fees when cost and schedule performance deviates from
contract requirements.

Despite project expenditures of about $4 billion and a proposal to place the MOX Facility
construction project into cold standby status in FY 2015, we remain concerned with the project
management issues observed during the audit. We are hopeful that the audit results can help to
inform the current project reassessment effort. Furthermore, the audit results and related studies
by other entities identify lessons learned applicable to the future direction of the MOX Facility
and other large Department construction projects.

MANAGEMENT REACTION

Management concurred with the report's recommendations and acknowledged that the MOX
Facility design was not sufficiently mature when the project baseline was approved. NNSA is
currently working to implement the policies and processes needed to correct legacy problems
and deliver projects on time and on budget. A decision on how to proceed with the MOX
Facility is expected to be made in the next 12 to 18 months.

Management's comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Under Secretary for Nuclear Security
      Chief of Staff




                                                3
AUDIT REPORT ON COST AND SCHEDULE OF THE MIXED
OXIDE FUEL FABRICATION FACILITY AT THE SAVANNAH
RIVER SITE


TABLE OF CONTENTS

Audit Report

Details of Finding…………………………………………………………………………………1

Recommendations…………………………………………………………………………………5

Management Response and Auditor Comments…………………………………………………..6

Appendices

  1. Objective, Scope and Methodology……………………………………………………….7

  2. Related Reports and Testimony...…………………………………………………………8

  3. Management Comments…………………………………………………………………..10
COST AND SCHEDULE OF THE MIXED OXIDE FUEL
FABRICATION FACILITY AT THE SAVANNAH RIVER SITE

DETAILS OF FINDING
Overall, the National Nuclear Security Administration (NNSA) and Shaw AREVA MOX
Services, LLC (MOX Services) have been largely unsuccessful in controlling the cost and
schedule for the Mixed Oxide Fuel Fabrication Facility (MOX Facility). In March 2012, NNSA
found that MOX Services was unlikely to complete construction of the MOX Facility according
to the approved project baseline. NNSA concluded that total project costs were underestimated
by up to $900 million. NNSA directed MOX Services to develop a baseline change proposal
with updated cost and schedule projections. MOX Services estimated that completing the MOX
Facility would cost about $7.7 billion and take until November 2019, representing a cost growth
of $2.9 billion and a schedule slippage of over 3 years.

                        Projected Level of Effort and Material Quantities

The MOX Facility project's cost growth and schedule delays were due in large part to
significantly underestimated levels of effort required to install various construction commodity
items. According to the baseline change proposal developed by MOX Services, the estimated
amount of effort needed to install piping was increased by 26 percent, the estimated amount of
effort needed to install valves was increased by 30 percent, duct work installation efforts were
increased by 300 percent, and cable installation rates were increased by up to 151 percent.

As the project evolved and designs became more definitive, the estimated quantities of
construction commodities also changed significantly. For example, the number of pipe supports
was reduced by 40 percent, but the amount of piping to be installed was increased by nearly
33 percent or about 102,000 additional linear feet of piping. The amount of electrical cable
needed was also increased by 15 percent, requiring nearly 1 million linear feet of additional
cable.

MOX Services also stated that assumptions regarding the availability of qualified equipment
fabricators, suppliers and subcontractors capable of working under a nuclear quality assurance
environment were incorrect. For example, personnel with nuclear engineering design and
manufacturing experience have been in high demand, but in short supply. This in turn led to an
employee turnover rate on the project of almost 20 percent in Fiscal Year (FY) 2012.
Furthermore, the cost of engineered equipment had been underestimated, with the actual cost of
items such as process tanks, glove boxes and furnaces averaging about 160 percent of original
estimates.

                             Plutonium Metal Oxidation Capability

In June 2012, NNSA directed MOX Services to develop a baseline change proposal for adding a
1.5 metric ton-per-year plutonium metal oxidation capability to the MOX Facility. Plutonium
oxide is a feed material for the MOX Facility and was originally to have been provided by the Pit
Disassembly & Conversion Facility (Pit Conversion Facility), which was to be constructed at the
Savannah River Site. However, the Department of Energy (Department) cancelled plans for the
Pit Conversion Facility, estimated to cost over $4 billion. Subsequently, it decided to study


Details of Finding                                                                        Page 1
adding a plutonium metal oxidation capability to the MOX Facility and using existing assets at
Los Alamos National Laboratory and the Savannah River Site. MOX Services estimated that
adding such a capability would increase total project costs by about $262 million to a total of
$7.7 billion and would not be completed until June 2023. However, MOX Services did not
believe that adding a plutonium metal oxidation capability would adversely impact the MOX
Facility construction schedule. According to NNSA, the conceptual design for the metal
oxidation systems is about 80 percent complete. As of January 2014, no formal decision had
been made on whether or not to move forward with a plutonium metal oxidation capability.
Also, we noted that MOX Services' FY 2014 Project Execution Plan stated that work related to
the plutonium metal oxidation capability would be suspended and staff working on preliminary
design activities would be moved to other projects.

Project Design and Baseline Approval

A number of factors contributed to the growth in total project cost and the delay in estimated
completion date. In April 2007, the Department approved a project baseline that was developed
from an incomplete design. As a result, the baseline contained incorrect assumptions regarding
the levels of effort required to install various construction commodity items, the quantities of
commodity items needed, as well as the cost of various pieces of engineered equipment and the
availability of labor.

We noted that in its request for approving the baseline, NNSA stated that a July 2006 external
independent review had validated the project's baseline and its readiness to start construction.
However, our examination of the review team's report found that it expressed the following
concerns:

    •   An 85-percent design review, considered a best practice at the time and since increased
        to a mandatory 90-percent design review policy, was not conducted on the complete
        MOX Facility design, including all its various components. We found that the design
        review was limited to the construction package for the MOX Facility structure. NNSA
        and MOX Services did not intend to conduct a final design review of the complete
        project prior to the start of construction, and instead chose to conduct design reviews in
        stages or phases.

    •   The phased reviews conducted by NNSA and MOX Services did not meet the intent of
        Department Manual 413.3-1, Project Management for the Acquisition of Capital Assets,
        for the approval to start construction. Specifically, the manual provides that a project is
        ready to begin construction, implementation, procurement or fabrication activities when
        design and engineering activities are essentially complete; a critical or final design
        review is performed; and all environmental and safety criteria are met. The NNSA and
        MOX Services strategy failed to meet this intent.

The independent review team further cautioned NNSA that project cost and schedule estimates
were at a significant risk of increasing when using a phased or incremental approach to
completing the MOX Facility design.




Details of Finding                                                                         Page 2
In a separate July 2006 memorandum to the NNSA Administrator, NNSA's Associate
Administrator for Infrastructure and Environment expressed his concern regarding the MOX
Facility project. He expressed the belief that incomplete project planning could lead to an
unintended "design-build-design" process similar to that experienced by other major
Departmental projects including the Waste Treatment Plant and the Highly Enriched Uranium
Materials Facility. The Waste Treatment Plant at the Hanford Site was given the approval to
start construction when the design was only about 45 percent complete. Since then, total project
costs for that facility have increased significantly and the project is considerably behind
schedule. He pointed out that, similarly, a comprehensive design review had not been conducted
on the complete MOX Facility project and that the project had high-risk potential for increasing
downstream costs and schedule.

During testimony to the House Committee on Appropriations in March 2013, NNSA
acknowledged that the MOX Facility project was baselined and construction started utilizing
methodologies that have since been rejected. Specifically, the design for the facility was not
sufficiently complete to develop an accurate and credible cost estimate for the project. He
acknowledged that, in large scale projects there is often a tendency towards optimism in
developing estimates, assessing risks, and evaluating the cost and schedule impacts. However,
he stated that NNSA has since taken a number of actions to improve its project management
performance, including the establishment of a new acquisition and project management
organization, strengthening of change control procedures to prevent scope creep, and the
adoption of a peer review process similar to that used by the Department's Office of Science to
provide critical independent assessments.

Our conclusions regarding NNSA's efforts to manage the design and construction of the MOX
Facility are similar to those expressed by the Government Accountability Office (GAO) in a
February 2014 report on NNSA's Plutonium Disposition Program. GAO concluded that the
MOX Facility baseline was set several years before NNSA issued guidance that cost and
schedule baselines should not be set until design work is 90 percent complete. GAO reported
that a number of factors contributed to a $3 billion increase in the cost of the program.
Specifically, the Department approved the MOX Facility's cost and schedule baseline before the
design was complete, the level of effort needed to install equipment was higher than anticipated,
staff turnover was greater than expected, and subcontractors experienced problems meeting
nuclear quality assurance requirements. Also, NNSA withheld about one-third of MOX
Services' fees, including fees tied to meeting the project's cost and schedule estimates. GAO
recommended that NNSA conduct a root cause analysis on the Plutonium Disposition Program's
cost increases and ensure that future cost and schedule estimates met all best practices for
reliable estimates.

Ongoing Efforts

NNSA told Congress that going forward, it will require that nuclear facility project designs be at
least 90 percent complete prior to the approval of a baseline. Officials also indicated that NNSA
will require that design submittals provide a complete set of drawings and specifications,
including a detailed current cost estimate. While this is commendable, considering the problems
experienced by NNSA and MOX Services in controlling cost and schedule to date, we remain



Details of Finding                                                                        Page 3
concerned as to whether the estimated cost and completion date for the MOX Facility and the
plutonium metal oxidation capability are achievable. After spending close to $4 billion and with
final plans in flux, NNSA continues to move forward with the MOX Facility, although with a
significantly reduced level of funding, while it assesses alternative plutonium disposition
options. MOX Services developed a FY 2014 project execution plan for focusing on critical path
activities, reducing procurement expenditures, and retaining key personnel pending the outcome
of the Department's assessment of alternative plutonium disposition options. In the absence of
an updated approved baseline, MOX Services has been directed to report project progress against
the unapproved $7.7 billion baseline change proposal.

Given the combination of project cost increases, schedule delays and the current budget
environment, the Department initiated an assessment of alternative plutonium disposition
strategies and reduced funding for the project. The Department's FY 2014 budget request
reduced funding for the project by about $117 million from the FY 2013 level. For FY 2015, the
Department plans to further reduce funding for the MOX Facility. It has announced plans to
place the project into a cold standby status while continuing to evaluate other more cost efficient
plutonium disposition options. During recent status updates on the project, we were informed
that efforts to validate the most recent baseline change proposal have been placed on hold
pending the outcome of the alternative plutonium disposition strategies. This assessment is
expected to be completed in the next 12 to 18 months. NNSA plans to develop another baseline
change proposal based on the assessment's outcome.




Details of Finding                                                                         Page 4
RECOMMENDATIONS
Although the Department is examining alternative plutonium disposition strategies in light of the
MOX Facility's cost growth, schedule delays and budget restrictions, the project continues to
receive significant funding, including about $442 million in FY 2014, which was $82 million
more than the Department originally requested. Despite the proposed change in the project's
status for FY 2015, we remain concerned with the project management issues observed during
the audit. Managing projects that no longer have an approved cost and schedule estimate is
challenging because there is no reliable baseline for measuring progress. In fact, the Department
noted in a July 2013 hearing that not having such a baseline is the point of maximum risk for
unrestricted cost growth on a project. Therefore, we recommend that the Under Secretary for
Nuclear Security:

    1. Direct MOX Services to develop a new baseline change proposal that incorporates the
       results of the alternative plutonium disposition strategies;

    2. Request approval of a new MOX Facility project baseline only after all assumptions
       have been reviewed for reasonableness, the baseline change proposal is independently
       reviewed, and all necessary corrective actions are taken; and

    3. Apply the 90-percent design complete review policy to the plutonium metal oxidation
       capability if this capability is ultimately added to the MOX Facility.




Recommendations                                                                          Page 5
MANAGEMENT RESPONSE
Management concurred with the report's recommendations and indicated that corrective actions
were planned to address the issues identified. Specifically, regarding Recommendation 1, NNSA
stated that a new baseline change proposal and lifecycle cost estimate for the MOX Facility will
be developed following completion of the plutonium disposition strategy assessment. In
response to Recommendation 2, NNSA will have any subsequent baseline for the MOX Facility
independently reviewed and all assumptions assessed, as required by DOE Order 413.B Program
and Project Management for the Acquisition of Capital Assets. Finally, in accordance with
Recommendation 3, NNSA indicated that should the decision be made to include plutonium
metal oxidation capability in the MOX Facility, the added scope will be added to the project
baseline after design work is 90 percent complete.

Management's comments are included in Appendix 3.

AUDITOR COMMENTS
Management's comments and planned corrective actions are responsive to our recommendations.




Management Response and Auditor Comments                                                Page 6
                                                                            APPENDIX 1

                  OBJECTIVE, SCOPE AND METHODOLOGY
Objective

The objective of this audit was to determine if the National Nuclear Security Administration
(NNSA) had managed the design and construction of the Mixed Oxide Fuel Fabrication Facility
(MOX Facility) in an efficient and effective manner.

Scope

We conducted this audit from May 2012 through May 2014, at the MOX Facility at the
Savannah River Site, near Aiken, South Carolina. The audit scope of our review included costs
and activities related to the design and construction of the MOX Facility. The audit was
conducted under Office of Inspector General Project Number A12OR032.

Methodology

To accomplish the audit objective, we:

    • Analyzed MOX Facility project management and execution plans;

    • Analyzed various MOX Facility progress reports and construction reviews;

    • Reviewed Congressional budget requests;

    • Analyzed the new project baseline change proposal; and

    • Discussed project activities with NNSA and MOX Services personnel.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Additionally, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that the Department had established performance measures related to the plutonium disposition
program. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. We did not rely on
computer-processed data to satisfy the audit objective and therefore did not conduct a data
reliability assessment. Management waived the exit conference.




Objective, Scope and Methodology                                                        Page 7
                                                                             APPENDIX 2

                     RELATED REPORTS AND TESTIMONY

Office of Inspector General Reports and Testimony

   •   Audit Report on The Use of Staff Augmentation Subcontracts at the National Nuclear
       Security Administration's Mixed Oxide Fuel Fabrication Facility (DOE/IG-0887, May
       2013). The audit found that Shaw AREVA MOX Services, LLC had not effectively
       managed temporary living expenses and billed the National Nuclear Security
       Administration (NNSA) for excessive costs. Since January 2007, NNSA has reimbursed
       about $3.7 million in inappropriate temporary living expenses under staff augmentation
       subcontracts.

   •   Testimony on DOE's Nuclear Weapons Complex: Challenges to Safety, Security, and
       Taxpayer Stewardship (July 2012). The Office of Inspector General concluded that in
       many cases the Department of Energy (Department) and NNSA have not been as
       thorough as necessary in exercising contract administration responsibilities. Major
       project management issues, including the delays and cost overruns associated with the
       completion of the $5 billion Mixed Oxide Fuel Fabrication Facility (MOX Facility) at the
       Savannah River plant, require robust Federal oversight to ensure that taxpayer dollars are
       well spent and national security is protected.

   •   Audit Report on the Procurement of Safety Class/Safety Significant Items at the
       Savannah River Site (DOE/IG-0814, April 2009). The audit found that three structural
       components were procured and installed in the MOX Facility that did not meet the
       technical specifications for items relied on for safety. The procurement and installation
       of some of these components resulted in cost increases of more than $680,000 due to
       problems associated with the procurement of $11 million of nonconforming safety-class
       reinforcing steel. In a worst case scenario, undetected, nonconforming components could
       fail and injure workers or the public.

   •   Audit Report on the Status of the Mixed Oxide Fuel Fabrication Facility (DOE/IG-0713,
       December 2005). The audit found that the NNSA estimate for the design and
       construction of the MOX Facility was about $3.5 billion, which is $2.5 billion more than
       it had previously estimated. The cost of the MOX Facility significantly exceeded the
       amounts reported to Congress in 2002. At the time, NNSA reported that the design was
       approximately 60 percent complete. However, as of July 2005, NNSA spent
       $453 million on just design activities and had only completed 70 percent of design work.

Government Accountability Office Reports and Testimony

   •   Report on Plutonium Disposition Program – DOE Needs to Analyze the Root Causes of
       Cost Increases and Develop Better Cost Estimates (GAO-14-231, February 2014). The
       Government Accountability Office (GAO) found that NNSA identified various drivers
       for the $3 billion increase in the estimated cost of the Plutonium Disposition Program.



Related Reports and Testimony                                                            Page 8
                                                                            APPENDIX 2

       These drivers included DOE's approval of the MOX Facility's cost and schedule
       estimates before the design was complete. Also NNSA had not analyzed the underlying,
       or root, causes of the increases in construction costs.

   •   Testimony on the Department of Energy and Observations on DOE's Management
       Challenges and Steps Taken to Address Them (GAO-13-767T, July 2013). GAO
       concluded that challenges in the Department's management of major projects and
       programs resulted in significant cost increases and schedule delays. Regarding the MOX
       Facility, inadequately designed critical system components such as the gloveboxes for
       handling plutonium and the infrastructure needed to support these gloveboxes were
       among the primary reasons for a proposed cost increase and schedule delay. Also, the
       performance baseline for the MOX Facility was set several years before NNSA issued
       guidance in 2012 to set cost and schedule baselines only after design work was
       90 percent complete.

   •   Testimony on the Department of Energy and the Concerns with Major Construction
       Projects at the Office of Environmental Management and NNSA (GAO-13-484T,
       March 2013). GAO found that even though there have been improvements, the
       Department still needed to improve contract and project management. For example, the
       Department is currently forecasting an increase in the total project cost for the MOX
       Facility from $4.9 billion to $7.7 billion and a delay in the start of operations from
       October 2016 to November 2019.

   •   Report on Nuclear Proliferation, DOE Needs to Address Uncertainties and Strengthen
       Independent Safety Oversight of Its Plutonium Disposition Program (GAO-10-378,
       March 2010). The GAO concluded that the MOX Facility project had suffered delays
       due to the delivery of reinforcing bars not meeting nuclear quality standards. GAO noted
       that NNSA is reconsidering alternatives for establishing a pit disassembly and conversion
       capability. NNSA's alternative depended on an aggressive, potentially unrealistic
       schedule and NNSA had not conducted all required nuclear safety oversight activities.




Related Reports and Testimony                                                           Page 9
                                            APPENDIX 3

                      MANAGEMENT COMMENTS




Management Comments                              Page 10
                      APPENDIX 3




Management Comments        Page 11
                      APPENDIX 3




Management Comments        Page 12
                      APPENDIX 3




Management Comments        Page 13
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
